<html>
<title> - STRENGTHENING THE TRANSATLANTIC ALLIANCE: AN OVERVIEW OF THE OBAMA ADMINISTRATION'S POLICIES IN EUROPE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               STRENGTHENING THE TRANSATLANTIC ALLIANCE:
      AN OVERVIEW OF THE OBAMA ADMINISTRATION'S POLICIES IN EUROPE

=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON EUROPE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

                           Serial No. 111-20

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-505                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON,                     MIKE PENCE, Indiana
    California<greek-l>              JOE WILSON, South Carolina
ADAM SMITH,                          JOHN BOOZMAN, Arkansas
    Washington deg.<greek-l>Until    J. GRESHAM BARRETT, South Carolina
    2/9/09 deg.                      CONNIE MACK, Florida
RUSS CARNAHAN, Missouri              JEFF FORTENBERRY, Nebraska
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GERALD E. CONNOLLY, Virginia         TED POE, Texas
MICHAEL E. McMAHON, New York         BOB INGLIS, South Carolina
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
GENE GREEN, Texas
LYNN WOOLSEY, California<greek-l>As 
    of 3/12/09 deg.
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                         Subcommittee on Europe

                    ROBERT WEXLER, Florida, Chairman
JOHN S. TANNER, Tennessee            ELTON GALLEGLY, California
BILL DELAHUNT, Massachusetts         GUS BILIRAKIS, Florida
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
MICHAEL E. McMAHON, New York         TED POE, Texas
SHELLEY BERKLEY, Nevada              JOHN BOOZMAN, Arkansas
BRAD MILLER, North Carolina          BOB INGLIS, South Carolina
DAVID SCOTT, Georgia                 J. GRESHAM BARRETT, South Carolina
JIM COSTA, California
               Jonathan Katz, Subcommittee Staff Director
          Eric Johnson, Subcommittee Professional Staff Member
          Richard Mereu, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Philip Gordon, Ph.D., Assistant Secretary of State 
  for European and Eurasian Affairs, United States Department of 
  State..........................................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Wexler, a Representative in Congress from 
  the State of Florida, and Chairman, Subcommittee on Europe: 
  Prepared statement.............................................     3
The Honorable Philip Gordon, Ph.D.: Prepared statement...........     9

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California: Prepared statement....................    46
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    47
The Honorable Shelley Berkley, a Representative in Congress from 
  the State of Nevada: Questions submitted for the record........    48
The Honorable Philip Gordon, Ph.D.: Responses to questions 
  submitted for the record.......................................    50


  STRENGTHENING THE TRANSATLANTIC ALLIANCE: AN OVERVIEW OF THE OBAMA 
                  ADMINISTRATION'S POLICIES IN EUROPE

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                  House of Representatives,
                            Subcommittee on Europe,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2172, Rayburn House Office Building, Hon. Robert Wexler 
(chairman of the subcommittee) presiding.
    Mr. Wexler. The Subcommittee on Europe will come to order.
    I want to first apologize to Assistant Secretary Gordon for 
keeping you, and also to all the members of the public and 
interested parties. Democracy at times can be less than 
convenient. I do apologize.
    With the Assistant Secretary's agreement or consent, I am 
going to begin, and then we are going to take another 10-minute 
break, roughly, to finish this round of votes. And then we 
should have all the time that we need. I thank you very much.
    I first want to welcome and thank Assistant Secretary of 
State for Europe and Eurasia, Phil Gordon, for testifying. We 
have looked forward to this for several months now, and we are 
thrilled that you are here. I am especially pleased that 
President Obama and Secretary Clinton have chosen an Assistant 
Secretary with your extraordinary background and experience. I 
am highly confident that you will represent the United States 
in the highest capacity and will further America's national 
interests and strategic partnerships in Europe and in Eurasia.
    Today's hearing comes at a historic juncture for the United 
States and our European allies as we face a myriad of difficult 
issues, including a global economic crisis, accelerated global 
climate change, a resurgent Russia, instability in Afghanistan 
and Pakistan, and the possibility of a nuclear-armed Iran. 
Within Europe and on its borders, there are many challenges for 
American and European policymakers, including resolving frozen 
conflicts, rising nationalism and right-wing extremism, energy 
security, and significant backsliding by a number of nations in 
the area of political, judicial, and economic reforms.
    The good news is, according to recent polling data, the 
European public opinion has embraced President Obama's message 
of renewed American engagement and partnership. The President's 
outreach to Europe at the G20 in London, NATO's 60th 
anniversary summit, and the U.S.-EU meetings in Prague, has 
laid the groundwork for deeper collaboration between the United 
States and our transatlantic allies.
    Unfortunately, however, greater European public support has 
not necessarily translated fully into policy successes that 
benefit the welfare and security of both sides of the Atlantic. 
If President Obama and the new administration are going to be 
successful in addressing issues such as global 
nonproliferation, Middle East peace, stability and security in 
Iraq, Pakistan, and Afghanistan and Iran's nuclear program, we 
will need a stronger commitment from our European and 
international partners.
    Given the far-reaching foreign policy agenda of the Obama 
administration, we are eager to learn more about your efforts, 
Mr. Secretary, and those of the administration to strengthen 
historic transatlantic relations and to build stronger 
economic, political, and security links with our NATO and EU 
allies.
    It is essential that the administration continue to work 
with willing partners in Eastern Europe and the Caucasus and 
Balkans regions as these nations struggle with democratic 
reforms and push for greater engagement and inclusion into 
transatlantic institutions such as the EU and NATO.
    I want to applaud the Vice President for his statement 
during the recent trip to the Balkans that the ``Obama-Biden 
administration will sustain and reenergize the longstanding 
American commitment to a Europe that is whole, free, and at 
peace.''
    I also want to highlight the extraordinary effort of the 
President and Secretary of State for reaching out to our ally 
Turkey and for their efforts to resolve the ongoing Cyprus and 
Nagorno-Karabakh conflicts. Turkey is a key partner in 
Afghanistan, Pakistan, Iraq, and the Middle East, and President 
Obama's vision of a model partnership must be further fleshed 
out.
    The President's April trip to Turkey was historic, it was 
successful, quite so, and I implore the administration to 
continue to support Turkey's EU aspirations, as the President 
so strongly did; Armenian-Turkish reconciliation; and work with 
Ankara to combat PKK terrorism.
    There is no greater challenge facing the United States and 
Europe than our relations with Russia. I strongly support the 
administration's efforts to reach out to Russia, to hit the 
reset button and work with President Medvedev and Prime 
Minister Putin on critical issues such as the START Treaty, 
Iran, and North Korea. And it is also essential that we are 
realistic and clear-eyed about the true intentions of the 
Kremlin.
    As Secretary Clinton stated during a town hall meeting 
recently, ``Europe is our essential partner.'' I couldn't agree 
with her more. And I look forward to working very closely with 
you, Secretary Gordon, over the next couple of months and years 
to strengthen the transatlantic alliance.
    [The prepared statement of Mr. Wexler 
follows:]<greek-l>Wexler statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. If Mr. Gallegly was here, I would invite him at 
this time to make his opening remarks. He may be coming after 
the other two votes, so I will wait to do that. And probably 
the best thing to do at this point--I know we have a French 
delegation of members of the Parliament that I would like to 
welcome. There are four members of the French Parliament that I 
believe are sitting in the front row. I want to welcome you, 
gentlemen, and I apologize to you for the delay. I am sure the 
French Parliament has no such delays. But we very much welcome 
your presence here.
    Mr. Assistant Secretary, there is about 2\1/2\ minutes left 
with this. We could start, but then I would have to leave in 
the middle of your presentation. So I would rather not do that. 
So if I could just beg everyone's patience just for another 
little bit of time, I think at this point we will just adjourn 
for a short period, and then there will be two more votes, and 
then I will be back here, and hopefully others as well.
    Thank you for your accommodation.
    [Recess.]
    Mr. Wexler. I want to call the Europe Subcommittee back 
into session. I want to again thank everyone for their 
patience.
    At this time I would like to introduce our witness for 
today's hearing. Dr. Philip Gordon is currently serving as the 
Assistant Secretary of State for European and Eurasian Affairs. 
Prior to this appointment, from 2000 to 2009, Dr. Gordon was a 
senior fellow at the Brookings Institution in Washington, where 
he focused on a wide range of European and United States 
foreign policy issues. Prior to joining Brookings, he served as 
Director for European Affairs at the NSC under President 
Clinton, where he played a key role in developing and 
coordinating NATO policy in the run-up to the alliance's 50th 
anniversary summit.
    Dr. Gordon has held numerous teaching and research 
positions, and he is a prolific writer on international 
relations and foreign policy issues and has been a frequent 
contributor to major publications such as The New York Times, 
Washington Post, International Herald Tribune, and the 
Financial Times.
    Dr. Gordon, there are many, many issues. So, ordinarily we 
ask people to limit their comments to 5 minutes. But given the 
wide length of topics, please take the time that you need. I am 
hoping that others Members will come in as the votes actually 
stop. I thank you so much for your time, your presence, and 
your patience.
    Please.

  STATEMENT OF THE HONORABLE PHILIP GORDON, PH.D., ASSISTANT 
 SECRETARY OF STATE FOR EUROPEAN AND EURASIAN AFFAIRS, UNITED 
                   STATES DEPARTMENT OF STATE

    Mr. Gordon. Well, thank you, Mr. Chairman. Let me start by 
thanking you first for your kind words in your introductory 
statement, and to you and all the members of the committee for 
giving me this opportunity to talk to you about the Obama 
administration's policies and priorities in Europe and our 
strategies to further the transatlantic relationship.
    Let me begin by saying that President Obama, Secretary 
Clinton, and I are all deeply committed to reinvigorating and 
deepening the traditional relationships of confidence and trust 
that we share with Europe. I am convinced that Europe is eager 
to reciprocate and increase the breadth of our close 
relationship, which is based on shared values, enduring 
commitment to democracy, transparency, accountability, respect 
for human rights and the rule of law.
    Mr. Chairman, I submitted a much more detailed statement 
for the record. You will see by its length and detail indeed 
what a comprehensive agenda we have. What I would like to do 
here, if I might, is just underscore three of our broad 
priorities and the categories of issues we will deal with, and 
then we can come back, if that is all right with you, to any of 
the details in the written statement.
    There are three main categories for our priorities. First 
is how we engage with Europe on global challenges. Second is 
how we work toward a Europe that is more whole, free, 
democratic, and at peace. Then, finally, how we work to have a 
renewed relationship with Russia. I will just offer a couple of 
words about each of those, if I might.
    On the question of engaging with Europe on global 
challenges, it is a reality that many of our European partners 
are among the most prosperous, democratic, and military-capable 
countries in the world. Therefore, working with our allies both 
multilaterally and bilaterally will remain critical to our 
success in tackling the many serious global challenges that we 
face together.
    The United States cooperates with Europe on literally all 
of the most important challenges. Just naming a few: Restoring 
growth and confidence in the world financial system, fighting 
poverty and pandemic disease, supporting
    ongoing operations in Afghanistan and Iraq, countering 
terrorism and nuclear proliferation, promoting energy security, 
combating climate change, advancing peace in the Middle East, 
promoting human rights, combating trafficking in persons. The 
list is long, and I could name others.
    The point, however, is that there is not a single one of 
those issues on which we are not better off when we are working 
closely with our European friends. And I would be happy during 
the hearing to talk about the ways in which we are working to 
enhance that cooperation to strengthen our own interests.
    The second category I would mention is how we promote a 
Europe that is more democratic, more whole, more free, and more 
peaceful and stable, which is another important administration 
priority: Extending stability security and prosperity and 
democracy to all of Europe and Eurasia. This has been an 
objective of all United States Presidents since World War II, 
both Democratic and Republican, which is to say, working with 
Europe to realize this joint vision.
    We have made great process in the past 20 years since the 
end of the Cold War, but clearly more remains to be done. One 
of the ways we are seeking to do this is through our critical 
alliances and partnerships in Europe, including NATO, the EU, 
and the OSCE. We believe that the openness of Western 
institutions like the EU and NATO to the countries of Central 
and Eastern Europe has been, simply put, the most successful 
democratization strategy in history, and it has brought peace, 
stability and prosperity to millions. And the administration 
strongly believes that this process must continue.
    In promoting such a Europe, and while working with the
    EU, NATO, and the OSCE, we will strongly support the 
sovereignty and independence of all European States, including 
those that emerge out of the former Soviet Union, such as 
Georgia, Ukraine and Moldova. With Congress's continued support 
we will continue foreign assistance programs in Europe and 
Eurasia to nurture democratic and economic progress in the 
still fragile reformers and to promote their integration in 
Euro-Atlantic institutions.
    Looking to the Southeast, I would like to say, as you did 
in your opening statement, Mr. Chairman, that we support 
Turkey's aspirations for membership in the European Union, as 
Turkey advances reforms that will make it an even stronger 
partner and a better neighbor. We are engaged energetically to 
support efforts by Turkey and Armenia to normalize relations 
and efforts by Armenia and Azerbaijan to settle the conflict in 
the Nagorno-Karabakh.
    As you may know, I just myself returned from a trip to the 
region just a few weeks after being confirmed. I felt it was 
important to go to the region to signal our support for those 
countries and to do what we can to promote the historic 
processes that are going on.
    We also support the negotiations toward a settlement in 
Cyprus, and vigorously promote diversification of European 
energy supplies. We will continue to develop our relationship 
with the Central Europeans, who are now core members of NATO 
and the EU, and increasingly important global partners.
    We will show renewed leadership in the Balkans where, more 
than a decade after Western interventions, the forces of 
democracy, openness, and modernity still struggle against 
backward-looking ethnic nationalism and intolerance.
    Let me add finally in this category that we will engage the 
countries of Europe to help those still living survivors of the 
Holocaust to achieve some belated justice. The upcoming 
Conference on Holocaust-Era Assets in Prague I know is a 
subject that this subcommittee will be looking at on Thursday 
this week, and that will offer us the opportunity to do so.
    Let me finally mention the third broad category where we 
are trying to work more successfully with Europe, which is our 
renewed relationship with Russia. The President has made clear 
the Obama administration is committed to reinvigorating our 
relations with Russia, and looks forward to building a 
relationship based on respect and mutual cooperation.
    When President Obama and President Medvedev met in London 
in April, they agreed to work together on a variety of issues, 
including reducing strategic nuclear weapons and enhancing 
nuclear security, and cooperating on issues such as 
counterterrorism, Afghanistan, counternarcotics, Iran, North 
Korea, the environment, and many others.
    We look forward to upcoming talks with Russians in a number 
of different fora. There is the OSCE ministerial in Corfu; the 
NATO Russia Council, which we have revived and will also meet 
in Corfu; and, of course, the summits where the Presidents will 
meet in July.
    We look forward to those discussions and to the opportunity 
of strengthening relations with Russia. But I also want to make 
clear that at the same time that we reinvigorate our relations 
with Russia, we will not abandon our principles or ignore 
concerns about democracy and human rights.
    While we look forward to a more cooperative partnership 
with Russia, we have no illusions that this will be easy or 
that we will not continue to have differences. Russia's 
decision yesterday at the U.N. to block extension of the U.N. 
observer mission in Georgia is a clear example of such 
differences. The United States will not recognize the Russian 
sphere of influence. The United States will also continue to 
support the sovereignty and territorial integrity of Russia's 
neighbors.
    In conclusion then, Mr. Chairman, the United States and 
Europe share the important responsibility of leading the 
international effort to address our most pressing global 
challenges. We also share core values, which is a strong 
foundation as we work together on our global agenda of 
advancing these core values as well as security, prosperity and 
stability to the entire European Continent and the world.
    Mr. Chairman and all of the members of the committee, I am 
very grateful for the opportunity to be with you today, and I 
look forward to your questions. Thank you very much.
    Mr. Wexler. Thank you very much.
    [The prepared statement of Mr. Gordon 
follows:]<greek-l>Philip Gordon deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. Mr. Assistant Secretary, you must be the 
equivalent of a rock star up here, because I don't remember six 
or seven Members of the House coming to the Europe Subcommittee 
in a very long time. So you are a big draw.
    Before we go to questions, I would call upon my colleagues 
if they have any comments to make.
    Mr. Sires from New Jersey.
    Mr. Sires. No, I don't have any comments.
    Mr. Wexler. Mr. Delahunt.
    Mr. Delahunt. No.
    Mr. Wexler. Mr. McMahon.
    Mr. Scott.
    Mr. Scott. Well, Mr. Chairman, I would just like to make a 
brief opening statement. I think the presence of all of us here 
certainly shows the importance of Europe to our future. And our 
European partners have proven to be some of our more lasting 
and committed allies, stretching back to the birth of our 
Nation. From our own battle for independence, to the Barbary 
Coast, to the world wars, to the Cold War, we have cooperated 
with European nations to meet the challenges we face 
domestically and around the world.
    And now, as we are in the midst of global crisis and 
reaching to face new challenges in Afghanistan and Pakistan, 
never before have we needed European cooperation combating 
global warming, the dwindling of energy supplies, and also in 
improving and enhancing all of our partnerships in Europe and 
neighboring countries, particularly with Russia, as Mr. Gordon 
mentioned, and certainly with China and the emerging economies 
of India.
    Mr. Chairman, given the scope of this hearing, the width 
and the breadth of our interactions with the whole of Europe, I 
doubt that we will have the time to delve into many of the 
challenges lying before us, but I look forward to dealing in a 
few specific ones. I am specifically interested in your 
thoughts concerning how we can develop a more workable, 
meaningful relationship with Russia.
    I think Russia holds the key not just to Europe, but for so 
many things that we need to enhance peace and security around 
the globe, global warming, cooperation in terms of nuclear 
nonproliferation. So many critical issues. And I think that 
Russia certainly plays a very important role in that, as well 
as enhancing our cooperation with our NATO allies as we grapple 
with the many issues.
    Mr. Wexler. Mr. Tanner.
    Mr. Tanner. I will wait. Thank you, Mr. Chairman.
    Mr. Wexler. Mr. Inglis, you have any comments you would 
care to make?
    Mr. Inglis. Yes. Thank you, Mr. Chairman.
    This is a great opportunity for me to mention something 
better than cap-and-trade, because it seems to me that Europe 
is finding out that there are some real challenges with cap-
and-trade. And we in America, I think, are about to find out 
that it sure is hard to pass something like that, especially a 
massive tax increase, in the midst of a recession, a Wall 
Street trading scheme that would make Wall Street traders 
blush, I think, after what we have been through, and that 
punishes American manufacturing.
    But there is something better. There is an opportunity here 
to, when that falls apart, to pursue something different, which 
is basically a revenue-neutral tax swap that involves reducing 
taxes on payroll and in an equal amount imposing a tax on 
carbon dioxide.
    So it is not a tax increase of any sort, it is simply a tax 
swap. Revenue-neutral. So you move from taxing wages and income 
and industry in the payroll tax, you take that tax away and you 
put a tax on carbon dioxide. And what it does is changes the 
economics of alternative technologies.
    And also of importance to our friends in other countries, 
it would be border-adjustable, so that this bill we have got 
pending could be removed--the tax could be removed on exports 
and imposed on imports.
    It may be something that, from what we hear from European 
friends, may actually be very similar to a VAT export rebate in 
that way, something that they have a great deal of experience 
with. And we think that it is WTO-compliant, unlike the current 
cap-and-trade bill, which, as I understand it, is a per se 
violation of WTO to give away free allocations. Eighty-five 
percent of them have been given away for free. You have got to 
wonder whether our trading partners are going to sit still and 
say, Yo, you think that is a WTO violation?
    And so if they do, we have got the alternative. And it is 
something that I think we can work together with our European 
friends especially to bring about real change in our economies 
and address the challenge ahead of us.
    So, thank you, Mr. Chairman, for the opportunity to speak 
about that.
    Mr. Wexler. Thank you.
    Mr. Wexler. I will begin, then, maybe focusing on two 
principal areas, Russia and Azerbaijan. You have ably outlined 
the parameters of the new administration's approach to Russia. 
I was wondering with maybe a bit of specificity if you could 
talk about the areas that are of potential contention between 
the United States and Russia, as well as the areas that are of 
potential strategic cooperation, and what role will the 
administration seek with our European allies as we engage 
Russia in that regard.
    And with respect to Azerbaijan, in the context of the 
engagement between Turkey and Armenia, there are obviously 
certain sensitivities with respect to Azerbaijan. I think the 
Secretary very ably, when the Azerbaijan Foreign Minister 
visited Washington, talked about the strategic importance of 
Azerbaijan. I would like to ask you what steps the 
administration is taking to bolster the American relationship 
with Azerbaijan; what steps are we taking to navigate the 
course of the engagement between Turkey and Armenia so that 
Azerbaijan comes out a winner as well? And very specifically 
you may be aware I introduced legislation with Congressman 
Shuster that would lift Jackson-Vanik trade restrictions for 
Azerbaijan, and would ask if you are prepared to comment at all 
in that regard.
    Mr. Gordon. Thank you, Mr. Chairman. Both of those are very 
important topics, and I appreciate the opportunity to address 
them. Let me begin with Russia because it is indeed central to 
our European policy.
    The President came into office and very early on made clear 
that we wanted to put the difficulties and recriminations we 
have recently had with Russia behind us, to the extent 
possible. The previous years it had seen a serious 
deterioration in our relationship with Russia, and the 
President's view was that this was unfortunate because we 
really do share a number of common interests, and we are better 
off if we can work constructively with Russia.
    And you asked about some of the areas. We are better off 
when we get Russian cooperation on Afghanistan, Iran, nuclear 
nonproliferation, the world economy, climate change, and 
European security.
    So, he proposed that we try--and the word is maybe overused 
now--but try to reset the relationship with Russia and see if 
we can change the tone and the substance of the relationship. 
That is what we are trying to do. He had very constructive 
discussions with President Medvedev in London in April and 
looks forward to resuming those in July.
    But there is a second part of the way the administration 
thinks about the issue that I want to make equally clear, that 
even as we seek to have a more constructive relationship with 
Russia, for all the reasons I just said, we will not do that at 
the price of our principles and interests and friends. That is 
to say, as the Vice President made very clear early on at the 
Munich Security Conference, that there are certain principles 
that go along with this. We don't recognize any privileged 
sphere of influence for Russia in Europe. Democratic European 
countries have the right to join the alliances that they want 
to join without any third country having a veto, and, 
specifically, we will not recognize the breakaway regions of 
South Ossetia and Abkhazia.
    I think, just to make clear, that just this week we 
demonstrated that we will not pay any price in order to have a 
more constructive relationship with Russia over the issue of 
Georgia. We stood firmly behind our principles at the U.N. 
during the discussions of a follow-on U.N. mission in Abkhazia, 
a part of Georgia, and we are not simply prepared to concede 
that principle to the Russians in the name of a better 
relationship. And I can give you other examples of how, whether 
it is NATO enlargement or others, we will stand by our friends 
and by our principles.
    That said, I think there still is an opportunity for a more 
constructive relationship with Russia.
    Finally, Mr. Chairman, when you asked which areas are in 
the issue of possible cooperation and which possible 
confrontation, the reality is both. In each of the areas I 
gave, we can go one way or another, and what we are trying to 
do is make sure that we cooperate on all of those, rather than 
the opposite.
    If I might address the question of Azerbaijan, which is 
also very important, and, as I said, only a couple of weeks 
into my own tenure in office, I decided to go to Armenia and 
Azerbaijan and Georgia because it seemed to me that of all the 
many challenges we face in this vast region, there are some 
serious opportunities there. And you talked about what they 
are.
    You have two parallel but separate tracks going on, a 
Turkey-Armenia normalization reconciliation process that we do 
think is quite potentially historic, where two countries have 
agreed on a framework for normalizing their relations that 
would include opening the border, which has been closed for far 
too long, which would establish diplomatic relations, and would 
provide commissions in key areas, including history. And we 
encourage that process, and we support it.
    We have said that it is an independent process and believe 
that it should move forward regardless of whatever else is 
happening in Europe or anywhere else, because both countries 
would benefit.
    That said, it is nonetheless the case that at the same time 
negotiations on Nagorno-Karabakh are going on between Armenia 
and Azerbaijan. That is the part of the context in which the 
region moves forward, and we are encouraging that process as 
well.
    Again, our view is that these are separate tracks. They are 
moving forward at different speeds. But we are engaged 
vigorously on both, because if both were to succeed, it really 
would be an historic opportunity for the region from which all 
three of those countries would benefit.
    Mr. Wexler. Thank you very much. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Dr. Gordon, the United States policy has been to support a 
Cyprus settlement based on a bicommunal, bizonal federation, 
with a single sovereignty and international personalities. 
Given that current direct talks are taking place under the U.N. 
framework, what is the United States doing to encourage the 
Turkish Government to embrace this framework for final 
solution?
    Mr. Gordon. You have indeed well described the 
administration's approach and the administration's aspired 
outcome. At present the two sides on the island have been 
talking directly to each other since last September, which is a 
good thing. And they have been doing so under U.N. auspices.
    We have said from the start that we are prepared to be 
helpful as we can. At present it looks like the direct talks 
are going on regularly, and the U.N. is being helpful. And we 
will support that process. If a more direct role would 
ultimately be useful, we would be prepared to consider that.
    We have directly engaged with both sides, including the 
Turkish Government, to make clear that that is our view as you 
described it. The outcome should be a bizonal, bicommunal 
federation with a single sovereignty. And we make that clear to 
our Turkish counterparts consistently when we talk about the 
issue.
    A Cyprus settlement, just as I described, regarding 
Armenia, Azerbaijan, and Turkey, a Cyprus settlement would also 
be win-win. Both sides would benefit from a political 
settlement, and we will be actively engaged to achieve it.
    Mr. Sires. Getting back to Russia and the visit by the 
President in July, are you concerned at all the expectations 
may be too high, meaning with Russia, in terms of what we can 
accomplish?
    Mr. Gordon. Expectations should indeed be realistic. We are 
not going to go from a very contentious relationship with 
Russia, where the United States and Russia have had significant 
disagreements about European security, about missile defense, 
about NATO enlargement, about other regional issues, to one in 
which we agree on all of those things. So I appreciate the 
spirit of your question.
    Expectations should be kept in check, particularly because, 
as I said, we are not prepared to pay any price for a 
successful summit or a better relationship with Russia. We will 
stand by our principles and our interests, but I do think there 
are opportunities for not just a successful summit, but for 
concrete results from that successful summit. We are looking at 
areas in which we can do that.
    We welcome the Russian Government's offer of providing 
transit for assistance, including lethal transit assistance to 
Afghanistan. That is an example of something that is in our 
common interest, a stable Afghanistan. As it is Russia's 
interest, it is in our interest. If they are prepared to help 
us with that, that is a good thing, and we welcome it.
    We welcome Russia's cooperation on the issue of containing 
nuclear proliferation to Iran. We are talking seriously about 
strategic nuclear arms reductions and a follow-on to the START 
agreement, and believe that that is also in our mutual 
interest, and that we can move that ball forward at the summit 
in July. We are talking about economic relations between the 
two countries and possibly Russia's eventual WTO membership.
    So, while keeping expectations in check, I would also want 
to underscore there are some real prospects for progress, and 
we will do all we can to achieve them.
    Mr. Sires. Thank you very much.
    Mr. Wexler. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    I applaud you for your statement about standing on 
principles. I am not quite sure about standing with friends if 
they do something rashly. And I would suggest that in terms of 
the conflict between Georgia and Russia, Mr. Saakashvili did 
not respond to concerns expressed by your predecessor. Dan 
Freed actually testified in front of this committee that he was 
in communication with the Georgian officials the night before 
the invasion and asked them to move cautiously and do not 
launch a military offensive. They ignored him. I don't know if 
I really want to stand by that friend.
    I dare say if they had acceded to NATO, there would have 
been certain treaty obligations that could have been not just 
embarrassing, but might very well have implicated the United 
States in terms of some sort of military engagement.
    So, while I appreciate standing on principles, and I think 
we should do that worldwide, by the way, whether it is the 
Mideast, whether it is Asia, whether it implicates China, 
whether it implicates the principles that we are known for in 
human rights, due process, we ought to consider those very, 
very seriously whether it implicates those who are our friends 
as well as those with whom we have a contentious relationship.
    Care to comment?
    Mr. Gordon. Sure. I appreciate your thoughts on that. We 
have said that whatever the origins of the war in Georgia last 
summer, and whatever the actions of the Georgian Government, 
they didn't justify the Russian invasion of Georgia, 
dismembership of Georgia, the disproportionate use of force and 
occupation of the breakaway regions of South Ossetia and 
Abkhazia, nor would those actions have justified or do those 
actions justify the subsequent violations of the cease-fire 
agreement that Russia reached with the European Union under the 
French Presidency.
    Mr. Delahunt. Mr. Secretary, with all due respect, do you 
think that the Georgians have any culpability or responsibility 
in terms of what occurred in August of last year?
    Mr. Gordon. As I said, the origins of the war can and have 
been and should be debated----
    Mr. Delahunt. What is your opinion about the origins of the 
war?
    Mr. Gordon. My opinion about the origins of the war is that 
President Saakashvili may well have fallen into a group that he 
shouldn't have. The international community--the United States 
and the international community was unsuccessful in persuading 
him not to fall into that trap.
    Mr. Delahunt. So you are suggesting a trap that was 
intentionally laid?
    Mr. Gordon. I certainly think there were provocations that 
Georgia's use of force and going into Skinvali didn't occur in 
a vacuum. There were provocations on both sides. There were 
certainly provocations coming from the South Ossetian side.
    Let me be clear, I would have strongly--or I would have 
done everything I could to avoid seeing the Georgian 
Government, as I have put it, fall into this trap and the war 
that followed it. Nonetheless, I would repeat that----
    Mr. Delahunt. Mr. Secretary, again, with all due respect, I 
am going to suggest to you that if they fall into a trap, and 
it implicates American national security interests, that we 
should be very wary of who we chum around with in that 
particular region. And it would appear, listening to your 
testimony, that, at least in your opening statements, that 
there appears to be no responsibility and no culpability on the 
part of the Saakashvili regime, a regime that has a rather 
speckled human rights record. And I am sure that you have 
reviewed that.
    It causes me great concern that there appears to be within 
Georgia a growing tendency toward authoritarianism. You know 
what happens in terms of closing of the media outlets. Peaceful 
protesters were assaulted by security forces. What I suggest is 
a more balanced view, without just simply ignoring the 
responsibility of the Saakashvili government.
    Mr. Gordon. I appreciate that. I will, if I might, just 
address both of those points.
    On the first, again, I would say that whatever the origins 
of the conflict last summer, they didn't justify Russia's 
disproportionate use of force, nor the recognition of the two 
breakaway regions, a recognition that has simply not been 
supported in the international community.
    I think only Nicaragua has joined Russia in recognizing 
those two breakaway regions, and the rest of the world has 
stood firmly behind the principle of territorial integrity, 
which is the principle that the United States also stands 
firmly behind.
    There is not a military solution to those breakaway 
regions. That is clear. But it is also inappropriate for Russia 
unilaterally to have recognized them and also to fail to 
implement the cease-fire agreements, which require Russia to 
bring its forces back to the positions that they were prior to 
the outbreak of conflict, something that Russia signed up to do 
and has not yet done, nor has it allowed the full humanitarian 
assistance to go in.
    On your second point about democracy in Georgia, I also 
went to Georgia to pay close attention to that issue. There 
have been massive protests throughout the country in recent 
months. I think, on the whole, the Georgian Government has 
shown significant and appropriate restraint in dealing with 
those protests.
    We have encouraged them to do that. We welcome the fact 
that they have. But we have also encouraged them to move 
forward with the democratic reforms that are necessary to see 
Georgia remain on the path to Europe.
    Mr. Wexler. The time has expired.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Dr. Gordon, thank you for your public service and your 
testimony here today.
    I have two questions. First, since the 1974 Turkish 
invasion, over 36 percent of the territory of the Republic of 
Cyprus has been occupied by approximately 43,000 Turkish 
troops. Can you comment on how the United States can use its 
close relationship with Turkey to convince it to remove the 
disproportionate and unnecessary number of troops from Cyprus, 
thereby removing a major hurdle on its path of accession to the 
EU?
    Secondly, I am convinced that the Government of Turkey 
continues to prosecute journalists and academics under Article 
301 for writing about the Armenian genocide. Most recently, the 
persecution of Turkey's first literature Nobel laureate, Orhan 
Pamuk, was upheld by Istanbul's highest appeals court. His 
trial is expected to resume this year for his remarks about the 
Armenian genocide.
    In light of Turkey's continued prosecution of intellectuals 
who express themselves, what steps will you outline with the 
Turkish Government to ensure greater freedom of press and 
expression in Turkey? Thank you.
    Mr. Gordon. Thank you for both of those questions.
    On the first, as described earlier, we have a very clear 
type of Cyprus settlement in mind that would be a bizonal, 
bicommunal federation, single sovereignty. It is for the 
parties to decide exactly how that comes out in terms of 
territory and refugee return and troops and demilitarization, 
but in any imaginable Cyprus plan that I have seen and that the 
parties are discussing, it would also involve a significant 
reduction in outside forces on the island, including Turkish 
forces.
    Again, the path to the outcome that you describe, which is 
a reduction of the Turkish military presence in Cyprus, is a 
Cyprus settlement. That is why we are so engaged and so keen to 
have one. It would bring about the outcome that you referred 
to, and it would benefit both sides in so many ways.
    As for freedom of expression in Turkey and Article 301, I 
can say the United States everywhere is a strong--and the Obama 
administration is a strong proponent of freedom of expression, 
freedom of the media, freedom of the press, free societies. 
Turkey took some steps last year to revise Article 301 of its 
penal code that made it more difficult to have political 
prosecutions. That was an important step forward. It would do 
well to continue down that path and allow for more freedom of 
expression. And we have a constant dialog with the Turkish 
Government about these issues, and will continue to make that 
view clear.
    Mr. Bilirakis. Thank you.
    Mr. Wexler. Thank you. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and thank you for 
convening this very important and interesting subcommittee 
meeting.
    And thank you, Dr. Gordon, for being with us today. I just 
want to add my voice to those who are very concerned about the 
situation in Cyprus and see it as very important to the people 
of Cyprus that it gets resolved, but also for those of us who 
want to see Turkey become a full partner in Europe and part of 
the EU, certainly I see it as a major stumbling block, because 
as long as there are all those troops in Cyprus, as long as 
there is not a recognition there that there should be one 
federation and no reference to a Republic of Northern Cyprus, 
which we have heard too often, even sometimes from the American 
Government, I think, will we be able to get that done.
    So when I hear you say that you kind of have an attitude 
that we want to see this--get this done, but I don't quite hear 
that America sees that as the imperative that it needs to be so 
that we then can say with one voice: Yes, Turkey should go into 
the EU, but it can't until the situation gets resolved.
    So I guess my question is: What is the administration doing 
to--and you are right, Cyprus has to solve itself, but I am 
sure Ankara should hear from our Government that this is a step 
for us to then say: Get Turkey into the EU.
    Mr. Gordon. Absolutely. Let me say it quite clearly. This 
administration is strongly engaged toward just that goal. The 
Secretary has had this discussion with her counterpart, the 
Cypriot Foreign Minister, with her Turkish counterparts. She 
and the President, of course, have both traveled to Turkey, and 
they have made clear that we see real opportunities in Cyprus 
this year with the parties talking directly to each other, and 
that it is a strong United States interest to get a deal on 
Cyprus done as soon as possible.
    You mention it as an obstacle to Turkey's access to the EU, 
and we agree with that. A Cyprus settlement would be a major 
step forward in opening up the door, the EU door, to Turkey. 
That is a further reason that we support it. That is why the 
Greek Government supports it. It would be good for Turkey, and 
even the EU.
    So we will be very closely engaged, and the Secretary is 
very personally interested in this. It has been too long. It 
shouldn't wait any longer. This year would be a good time to 
have a Cyprus settlement.
    Mr. McMahon. I think you said it, but it is clear, I think, 
that the administration and the Secretary see this as a very 
important issue and one that they will press in the immediate 
future.
    Mr. Gordon. Absolutely.
    Mr. McMahon. Assume that were to happen, and there were to 
be a withdrawal of troops and an agreement on Cyprus, what 
other impediments do you see in terms of Turkey allowing 
admittance into the EU? It seemed that when the President, to 
his credit, visited Turkey that--I wouldn't want to say 
displeasure, but it seemed that our great allies in France and 
Germany, Chancellor Merkel and President Sarkozy, were not 
thrilled by it.
    How do you see--assuming, and only assuming, in my opinion, 
and obviously from my colleagues, that the Cyprus issue is 
resolved favorably, what other impediments do you see, and how 
can America help to remove those impediments?
    Mr. Gordon. It is an important question. Thank you. I will 
be frank. It is a real challenge. I think as a general 
proposition it is fair to say there is enlargement fatigue in 
the European Union, not just toward Turkey, but especially in 
the context of an economic crisis, countries and populations 
are not terribly enthusiastic about bringing in new members. 
That is unfortunate, but I think it is a reality.
    It is a particular challenge toward Turkey, which is a 
country of some 70 million geographically further away, a 
majority Muslim country that faces some skepticism among 
European populations.
    But we continue to make the case that European Union 
membership for Turkey has been an enormous incentive toward the 
type of Turkey that Europe would like to have as a neighbor and 
ultimately as a member, a more democratic Turkey, a freer 
Turkey, a more stable Turkey, and one that can contribute 
strategically, economically, culturally, and in so many ways to 
the European Union. That is a discussion we have had for years. 
We will continue to have it. As the President has said, we know 
we are not members of the EU. This is not up to us. But as 
friends of the Europeans, we are able to talk about these 
strategic issues and common events, and we will continue to 
make the case as to why that would benefit Europe.
    Mr. McMahon. Thank you for your forthrightness and being 
with us today. Thank you, Mr. Chairman. I yield the remainder 
of my time.
    Mr. Wexler. Thank you.
    At this time I want to recognize the former chairman and 
now the ranking member of this subcommittee Mr. Gallegly.
    Mr. Gallegly. Well, I thank the former ranking member and 
now the chairman of this committee for yielding to me. I 
apologize to all of you for being a little tardy. 
Unfortunately, one of the things we can't make more around here 
is more time. I appreciate you giving me the opportunity, Mr. 
Chairman. And thank you for holding this oversight hearing 
today on the transatlantic relationship.
    I would also like to welcome Dr. Gordon, the recently 
appointed Assistant Secretary of State for Europe and Eurasian 
Affairs at the State Department. Thank you for being here.
    There are many areas I would like to focus on regarding 
United States-European relations. However, in the limited 
amount of time today, I would like to focus on just a couple of 
areas.
    First, I am very concerned about the situation in Bosnia. 
We are now 14 years after the Dayton Accords. Instead of 
improvements in the political situation, we are seeing little 
progress in creating a more unified, multiethnic society.
    Second, in Kosovo I see very little evidence that the 
Serbian enclave in the north is willing to cede authority to 
the central government. In fact, every briefing I have received 
indicates that the Serbs who are living in Kosovo conduct their 
day-to-day lives as if they were being governed from Belgrade 
instead of Pristina.
    I would also like to hear Dr. Gordon's analysis on the 
situation in both Bosnia and Kosovo and the strategy of our 
Government in conjunction with the Europeans to build a more 
stable future in these two countries. If we do not make 
progress in Bosnia or Kosovo, I believe there is a real danger 
of renewed violence in the entire region.
    In addition, I would like to touch upon the situation in 
Cyprus. I know that there was some reference to Cyprus as I was 
walking in, but having been a Member who traveled to Cyprus, it 
is one of those areas that is less traveled than some of the 
other places in the world. I visited that country less than 2 
years ago and strongly support negotiations between the Greek 
Cypriot and Turkish Cypriot leaders as they work to reach a 
settlement regarding the future of the island.
    I was pleased to see that in his written statement
    Dr. Gordon reiterated the administration's support for the 
negotiations. However, there have been questions raised as to 
whether Turkey is helping to facilitate an agreement or is 
actually constraining Mr. Talat's ability to reach common 
ground on specific issues with the Greek Cypriot counterpart. I 
hope we can explore this in the future during the question-and-
answer period, which obviously has already started.
    I thank you, Mr. Chairman, Mr. Former Ranking Member, and I 
look forward to the testimony of our witness. Thank you very 
much. I yield back.
    Mr. Wexler. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I would like to ask 
you, Dr. Gordon, about Russia. It would be very helpful to me. 
I will be going to Russia in the next week, and I want to try 
to prepare myself to engage in those areas where I believe we 
can have a partnership with Russia. I think it is critical that 
we find areas of common interest that we can work together on, 
and I want to get your comments on each one of them.
    I believe nuclear nonproliferation is an area that we can 
work on, and most paramount with that is the situation in Iran 
and the situation in North Korea.
    Now, in many respects, Russia has as much to win or lose 
from this situation as we do. So how can we engage in that? 
What is the administration's position on that? What must we be 
prepared, what kinds of questions do we need to get answers for 
in terms of Russia and Iran; Russia and North Korea; and how 
can we get Russia to play a more definitive and positive role 
in helping us? Those are the two most critical areas of nuclear 
nonproliferation, to stop North Korea and stop Iran.
    That is the first part of my question, Iran and North Korea 
and Russia, and what degree can the two of us work together to 
disarm these two nations from their nuclear weapons capacity?
    Mr. Gordon. If I may, I will answer that right now, and 
maybe we will have a chance to come back to Mr. Gallegly's 
questions about the Balkans.
    Nuclear nonproliferation cooperation with Russia is a 
priority for this administration. One of the reasons that we 
are trying to create a broader and more trusting general 
relationship with Russia is so that we can work together on 
issues like the one you mention. The fact is, and it is 
regrettable in many ways in recent years, Russia has appeared 
to view relations with us as a zero-sum game. If it is good for 
us, they must be against it; and if it is good for them, it 
won't be good for us.
    And we see things differently, and you have given an 
example of how this should be good for both of us. A nuclear 
armed North Korea means potential for proliferation and weapons 
of mass destruction getting in the hands of people who could 
harm us and people who could harm Russia. That is even more 
true of Iran. Iran is lot closer to Russia than it is to us, 
and Russia would be equally threatened by a nuclear armed Iran, 
and I think Russia's leaders know that.
    So the question is, how do we maximize cooperation? As I 
said, one is to just have a better overall relationship with 
Russia so they don't see a gain for us as a loss for them. But 
more specifically, we have been prepared to talk seriously with 
the Russians about how they can be involved in containing a 
nuclear proliferation in Iran.
    Mr. Scott. Let me ask this because my time is coming, and I 
want to get my last part of this question in. In an effort to 
get Russia to deal more positively and more meaningfully with 
us on these two very critical issues in North Korea and Iran, 
what role could the missile defense system possibilities that 
we have on the table in our plan of placing them in the Czech 
Republic play into this? What is administration's thought on 
this? Is that an area of no touchability? Are we being held 
strongly and succinct in our positions there? And how do we 
play the missile defense shield situation? We have got one 
going in Alaska and California to take care of North Korean 
missiles. This was there for Iran's. Is that in play?
    Mr. Gordon. Thank you for raising that important issue, 
which comes up a lot.
    On the missile defense plans, let me say this. The 
administration is reviewing the plans that existed to put 
interceptors in Poland and the radar in the Czech Republic. The 
President has said there is a ballistic missile threat; there 
is a nuclear threat, and if missile defenses will make us and 
our allies safer, we will deploy them. But he wants to take a 
serious look at whether the system works, whether it is cost-
effective, and whether it is the best way to protect ourselves 
and our allies.
    That review is ongoing, and we will see where it comes out. 
In terms of the link with Iran, there is one, but in the 
opposite direction, I would say. That is to say, the President 
has said, if we can prevent Iran from developing nuclear 
weapons and ballistic missiles, the less there is a need for a 
missile defense system in Europe. It is just sort of a logical 
conclusion.
    The point of the missile defense system is to protect 
against an Iranian nuclear and ballistic missile threat. If 
that threat goes away, then the need for the system also goes 
away. And he has said that to the Russians to underscore that 
if they can help us deal with the threat, then there will be 
less of a cause to have the missile system that they oppose.
    Mr. Scott. Thank you, Dr. Gordon.
    Thank you, Mr. Chairman.
    Mr. Wexler. Mr. Gallegly has graciously suggested, Mr. 
Tanner, that we go to you.
    Mr. Tanner. Thank you, Mr. Chairman.
    Thank you Mr. Secretary. I have just a very brief question 
and comment about NATO. It has some challenges, no question 
about it. Any consensus organization does. It has the financial 
challenge and so forth, but it also has an institutional 
challenge with respect to prosecuting the effort in Afghanistan 
and Pakistan.
    And that is the--not only the member nations of NATO and 
what they bring to the table, but the cooperation, hopefully, 
with the European Union to help on the civilian side on some of 
the things that are maybe a little bit outside of NATO's 
mission.
    I would be anxious to hear what you all are doing in that 
regard to convince or to urge the European Union to do more 
with respect to the building of the civilian part of the 
equation that must take place in that part of the world.
    Secondly, we just got back from a NATO trip where we went 
to Sweden. Sweden is becoming president, as you know, in July. 
And we were in Finland and Norway, Oslo, at the NATO PA 
conference. But we went to the other countries to discuss the 
High North issue. And I wondered what the administration was 
doing with respect to the issues that are going to be 
developing in the areas called the High North. Thank you.
    Mr. Gordon. Thank you very much.
    On the first part, we are indeed actively encouraging the 
Europeans to do more on the civilian side in Afghanistan and 
Pakistan just as we are. At the NATO summit, our allies stepped 
forward with modest military contributions, including some 
3,000 troops to help get through the elections, but there were 
not significant added military contributions, which you know as 
well as I do are very difficult to get from Europeans. And 
therefore, we are encouraging them all the more to do what they 
can on the civilian side because we know that there is not 
ultimately a military solution in Afghanistan and Pakistan.
    The EU is a special priority of Special Representative 
Holbrooke who is working on the Afghanistan-Pakistan issue. 
There is a Pakistan pledging conference this week, and we have 
been strongly encouraging our European allies to get more 
engaged there and do what they can because we have also reached 
a conclusion that you can't solve Afghanistan unless you solve 
Pakistan, and that requires a lot of assistance.
    And we have said to them, we understand that there are 
constraints in what you can do on the military side, but it is 
in our common interest that you do more on the civil side, and 
we hope that they will.
    The High North, you are right to draw attention to it. It 
has been overlooked, but it is something I think we are going 
to have to start paying more attention to. NATO, as you know, 
has had a couple of recent conferences on this subject. The new 
secretary general comes from a northern country with a long 
history of involvement. And we agree with you that we are going 
have to pay attention to that emerging issue. It is not just a 
security issue, but it is an energy issue, and because it is an 
energy issue, it is a security issue.
    Mr. Wexler. Thank you.
    Mr. Gallegly.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Dr. Gordon, I am sensitive to the fact that you have been 
sitting there for 2 hours, and I appreciate that. And I am 
going to keep my questions very brief in view of that. But I 
would like to get back to that issue of Kosovo and Bosnia and 
the strategy that you see that we are going to try to implement 
in order to try to preclude further problems.
    Mr. Gordon. Thank you, Mr. Gallegly.
    I think you hit the nail on the head when you talked about 
Bosnia. We are not satisfied with the situation in Bosnia 14 
years after Dayton. I think an honest assessment would conclude 
that Bosnia is not just not moving forward in the way that we 
would like but has actually taken some steps backward.
    The Vice President recently took a trip to Bosnia because 
we wanted to show that we are engaged, and we are paying 
attention, but he was very clear with his Bosnian counterparts 
on all sides that they need to get beyond this ethnic 
nationalism that is dividing the country and bringing serious 
risk to stability throughout the region. We stand by the Dayton 
agreement. With the agreement of the parties, it can be tweaked 
and you can make constitutional and political progress.
    But there needs to remain a single Bosnia, and we just 
won't recognize any attempts to break away from that single 
Bosnia. But at the same time, there are entities that the 
constitution recognized, and those need to remain.
    It is a serious challenge, but we are trying to bolster the 
High Representative that stems from the Dayton Peace Accords. I 
think over time, I talked about EU enlargement fatigue; there 
was a bit of an international Bosnia fatigue as well. People 
felt, well, the war is over; we don't have to pay much 
attention anymore. And I think the high representative didn't 
get the political backing that he needed to keep Bosnia on the 
right track. And we are going to try to bolster that and stand 
firm behind the Dayton constitution and work with our European 
allies. After all, they are at least or more engaged than we 
are in Bosnia to put Bosnia back on track and make sure that 
this sort of ethnic nationalism doesn't pay.
    You also highlighted the challenges in Kosovo. They are 
there, and I wouldn't deny them for a minute. But I would say, 
if we pause a year, I think yesterday after the adoption of 
Kosovo's constitution, for a first year, that country has done 
pretty well. It has now been recognized by some 60 countries 
around the world, including most of the Europeans. It was voted 
in to IMF membership a couple of weeks ago. The World Bank 
recently voted as well. It is gradually acquiring its place in 
the international community, and we stand by it. The Vice 
President went there as well to underscore that.
    You are right that in the north of the country, ethnic 
Serbs still seem reluctant to buy into Kosovo as an independent 
state. But let me be clear that we cannot accept the idea of 
partition. We think that is a route that, if you started to 
travel down in the north of Kosovo, it would just never stop in 
the Balkans. So we are doing everything that we can to support 
Kosovo and hope that, over time, its citizens in the north will 
realize that their home is in Kosovo, and Kosovo is going to be 
a place where people of any ethnicity can have their rights 
respected, their religious rights preserved and respected, and 
they can find a stable home there.
    Mr. Gallegly. Very briefly, can we jump back to the issue 
of Cyprus and give us an assessment of how you see the role 
that Turkey is playing in trying to facilitate or otherwise? 
How would you assess Turkey's role in this process as it exists 
today?
    Mr. Gordon. I think that Turkey has an interest in a Cyprus 
settlement, and the Turkish Government realizes the interest in 
the Cyprus settlement. All of the parties in the Cyprus dispute 
are tough negotiators. And Turkey, while not a direct party, is 
included in that category. They, like everyone else will have 
to make some compromises if there is going to be a settlement. 
And as I have said before, we have this discussion with them on 
a regular basis, and I will continue to have it and to make 
clear that all sides are going to have to compromise for there 
to be a settlement. But if there is a settlement, all sides 
would benefit, including in the case of Turkey where a big 
obstacle to Turkey's EU aspirations would be removed.
    Mr. Gallegly. Thank you, Dr. Gordon.
    Thanks, Mr. Chairman.
    Mr. Wexler. Thank you.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. A number of 
questions. First, beginning with Russia, earlier this year with 
some fanfare, the administration talked about the reset button; 
although I think we got the translation wrong. You enumerated 
what you thought the areas in which we could move forward on 
with this new approach. What do you think we should be looking 
for in terms of the next 6 months or 12 months to determine 
Russia's sincerity in terms of making this reset effort 
successful?
    Mr. Gordon. That is a good question. Obviously, we will 
welcome cooperation wherever we can find it.
    . But priorities for this administration in foreign policy 
include the Iranian nuclear issue. And that would have to be 
near the top of the list to see Russia cooperating with us on 
such a critical issue where they can play such a political role 
is something that we will be very much looking for. Without 
cooperation on that issue, that is clearly going to be a 
significant blow to the cooperative relationship we would like 
to see.
    Afghanistan and Pakistan is another. It is a place where 
Russia can make a positive contribution, and it is a priority 
for the administration.
    Strategic arms control is another because we have a real 
prospect to do something in our mutual interests. Are they 
going to be working with us constructively in that area? That 
will be another test case.
    But I think I could go on for some time with examples where 
there will be indicators of whether they are also interested in 
a better relationship with us.
    Mr. Costa. In your sense of the meetings that have taken 
place, both with the President and the Secretary of State so 
far in the visits to Europe, I know we are not calling it a war 
on terrorism anymore; but to what degree do you think the 
Europeans, you talk about Bosnia fatigue, you talk about 
fatigue with regards to Afghanistan, that they continue to 
sense that the threat, I mean the bombings in Spain and London 
is continuing to be a source of concern among European 
countries?
    Mr. Gordon. That is something that we all have to be very 
conscious of and cautious about not losing sight of the degree 
of threat that is out there. When weeks and months go by 
without a terrorist attack, it is easy for populations to lose 
sight of it. I am sure that applies to Europe as well, but you 
gave the best possible reasons why that shouldn't happen. We 
have a good dialogue with Europeans on terrorism. I think we 
are on the same page.
    Mr. Costa. But do you gauge they sense the same sense of 
threat, the European countries?
    Mr. Gordon. I think, since 9/11, there has been a gap in 
the degree of threat felt by populations. It depends on the 
country. Europe is a diverse range of views.
    Mr. Costa. No, I understand.
    On NATO responsibility, and we talk about Afghanistan, and 
we look at the problems that concern the problems with poppy 
production and eradication; that is an area that directly goes 
into Europe. Where do you think NATO can play a greater role in 
that effort?
    Mr. Gordon. NATO has gradually--in the beginning in 
Afghanistan, NATO and all outside forces were highly reluctant 
to get involved in the drug issue. It is dangerous. It is hard 
to have success because you end up often displacing it rather 
than eradicating it. But over time, I think, we and our NATO 
allies in Afghanistan have realized that it is too central a 
part of the challenge we face to ignore. And gradually, NATO 
has gotten more aggressive in targeting the labs that make the 
drugs.
    Mr. Costa. So you think it has gone beyond reluctance at 
this point?
    Mr. Gordon. No. I need to be honest, there is still 
reluctance.
    Mr. Costa. Let me move over. We talked--I am kind of going 
full circle here back to Russia and the sanctions we are trying 
to deal with Iran. It is my understanding that France's oil 
enterprise, Total, hesitated regarding its investment in Iran, 
but the state-owned China National Petroleum Corporation took 
total spot of about a $4.7 billion contract.
    In addition to that, we are told that Royal Dutch Shell of 
Dutch and British origins and Reposal of Spain have offered new 
proposals for an initiative of Iran's major gas production in 
the Gulf and with the Iranian Government. How do we make 
sanctions work if our allies are not on the same page?
    Mr. Gordon. You have underscored exactly the reason why 
this is a global challenge where we need all of our partners 
and not just some. That is what we hear all the time from oil 
companies in certain countries; that if we pull out, someone 
else will go in. I would actually say that we and the Europeans 
are pretty unified in terms of the financial investment 
consequences that Iran should pay for failing to cooperate on 
the nuclear weapons issue, but if we don't get China and Russia 
to cooperate as well, that is only going to have a limited 
impact.
    Mr. Costa. A final question if I might, Mr. Chairman.
    And since I want to cover all the continents here, we were 
in Sudan over a year ago, and obviously the EU has been trying 
to play a role in an effort there. USAID has been a big part of 
that. But providing the monetary support for the military 
forces to try to protect those folks has been limited. Do you 
think we are going to get the kind of support we need in Sudan 
from our European allies?
    Mr. Gordon. I can't make a prediction on that. I can only 
say, it is a priority. And I began this by talking about how we 
need Europe to be a global partner, and that is a good area 
where they could show global responsibility alongside us.
    Mr. Costa. All right.
    Thank you very much, Mr. Chairman. I have exceeded my time.
    Mr. Wexler. Thank you.
    Mr. Secretary, I would like to follow part of Mr. Costa's 
questioning with respect to Iran in the context of the dynamic 
of Europe. Obviously the Iranian election is too fresh, too new 
to know fully all the ramifications, although I suspect they 
may, in fact, be far greater than any of us realize as we sit 
here now.
    Mr. Costa rightfully points out what would seem to be some 
of the divisions, notwithstanding all of the efforts that the 
EU3 have provided in terms of negotiating with Iran and the 
degree of commitment that is in fact shared between the United 
States and Europe in terms of thwarting Iran's nuclear 
ambitions. There is a division when it comes at times to 
contractual relationships.
    And in the context of the President very ably, at least at 
this early stage, navigating between his commitment to a policy 
of engagement, which many of us and I certainly do support very 
strongly, and at the same time of course pointing out the need 
for a legitimate election and a review and standing up for 
people's voting rights and their human rights and the like, 
there is almost complete unanimous support in Europe for the 
President's engagement policy.
    But what worries me is, once we get beyond engagement, 
should it not result in the type of Iranian behavior that we 
would wish, what kind of commitment do you foresee at this 
point in terms of the next steps, should they be required? Are 
our European allies, in your view, considering the next level 
of options that may, hopefully not, but may be required? Is the 
EU in a position to seriously contemplate autonomous sanctions 
against Iran outside of the U.N. if the ability to develop that 
framework within the U.N. does not exist? And what impact do 
you think the election in Iran is having in Europe?
    And just totally aside from that, if you could, maybe just 
point out or make a comment with respect to the agreement I 
understand that was made this Monday between the European Union 
and the United States with respect to Guantanamo and the 
detainees? If you wish to comment on that, which I think is a 
very important development, I would like to give you the time 
to do that.
    Mr. Gordon. Thank you, Mr. Chairman.
    Those are challenging and important questions. I will 
comment on both.
    On Iran, I think we have made enormous progress over the 
years in coming together toward a more unified United States 
and European view. I think that by taking the lead in some ways 
on the talks with Iran about the nuclear program, the EU3 
process that you mention, Europeans have developed a sense of 
responsibility on the issue and I think increasingly got on the 
same page as us in making clear to the Iranians that, on one 
hand, we are open to a better relationship, in bringing Iran 
into the international community, but on the other, if they 
refuse to give up their nuclear weapons programs, then there 
would be consequences.
    And I think we have seen a significant cutting back, not 
just in terms of the U.N. resolutions and U.N. sanctions, but a 
significant cutting back in financing from European countries 
for Iran and in terms of European investment in the Iranian 
energy sector.
    You asked the challenging question, will they be prepared 
to take the next steps if we don't have success in this? And I 
can only say, Mr. Chairman, that that is what we are working 
constantly on. I think the answer is yes. I think Europeans 
understand that if we allow, we collectively, the international 
community, allow Iran to develop a nuclear weapon, then 
whatever is left of the international nonproliferation regime 
is dead; that other countries would follow suit.
    And when they think it through, they understand that 
proliferation throughout the Middle East and the Gulf is not in 
their interest. And they understand and I think they are 
following the leadership of the Obama administration on this 
score to make clear to Iran we are ready for talks; we will 
talk about anything; we will hold up the prospect of bringing 
Iran back into the international community; but there has to be 
a serious price to pay.
    I do think we and the Europeans are significantly on the 
same page on that issue. I said already that getting Russia and 
China and India and others on board will be critical as well.
    You are right to draw attention to the importance of the 
EU-U.S. Agreement, the EU statement on Guantanamo. That was a 
prerequisite in many ways for getting the Europeans to help 
with the closure of the prison on Guantanamo. They have been 
calling for it for a long time. The Obama administration said 
it would do so. And clearly, a path to being able to close the 
prison would be for Europe to take some of the detainees. EU 
countries would only do that when there was a framework among 
them, which is understandable, so that, given open borders in 
Europe, it was understandable that some countries wouldn't want 
to accept, wouldn't want their neighbors to accept detainees 
with open borders.
    So that agreement is an important step. But I think we also 
have to recognize the reality that the Europeans have said that 
their willingness to accept detainees will be influenced in 
part by our own. And they have made clear that it is hard for 
them to explain to their populations why they should take 
detainees even if they want to help with closure of the base if 
the Americans aren't prepared to do so as well.
    Mr. Wexler. Well, it seems like a fair position.
    Mr. Gordon. I will let you characterize it.
    Mr. Wexler. You have been very generous with your time.
    Mr. Delahunt.
    Mr. Delahunt. If I can, Mr. Chairman.
    This morning we had a hearing in front of the committee 
that I chair, which is the Committee on Oversight of American 
Foreign Policy.
    And I understand that there are guests from France here, 
and I wish to acknowledge their presence.
    The hearing this morning was on the issue of detainees. We 
are doing a series of hearings on them.
    We extended our gratitude to the Government and the people 
of Bermuda, as well as to the Government and the people of 
Palau.
    We welcome the expression of support from the European 
Union. We understand the difficulty dealing with publics. We 
all are elected members of this body, but we do respectfully 
seek your help. You can be assured of our gratitude if you are 
able to assist us in this very problematic issue.
    Now that I have a few minutes, I believe that there is 
overwhelming sentiment to support the recision of Jackson-Vanik 
here in Congress on the leadership of yourself and others, Mr. 
Chairman.
    If we are successful in passing that resolution, what would 
your recommendation to the President be, Mr. Secretary, if it 
ends up on the President's desk.
    Mr. Gordon. I believe the President has said that he sees 
Jackson-Vanik as anachronistic, no longer really applying to 
the issues of the day, and I think he would welcome that 
development.
    If I might, I would also like to thank you for your 
comments about those countries who have been helping with the 
detainees. I would also like to express my appreciation to 
those who have done so, and simply to add that the Italian 
Prime Minister, Berlusconi, announced that Italy would also 
take three. France had previously taken one and said it would 
consider others. We appreciate those efforts because this is a 
common endeavor so that we can work together to close the 
prison.
    Mr. Delahunt. Thank you, and I am sure that expression of 
gratitude coming from the White House is joined by all members 
of your committee and the full committee.
    With that, I yield back.
    Mr. Wexler. Thank you.
    Just to give the other members another opportunity if they 
wish.
    Mr. Scott. 
    Mr. Scott. I certainly will take advantage of Dr. Gordon's 
wisdom here.
    I want to go back to, if I may, to Russia a bit here. What 
is your understanding of Russia and the closure of the base in 
Manas? How do you view that? I mean, we are getting mixed 
signals. What is the real deal on Russia's role in closing that 
very critical military base that supplies our troops in 
Afghanistan with their supplies? I mean, can you explain their 
role and how the administration views it and if the United 
States has some strategy for dealing with that situation? 
Because if that base is closed, where do we go? How do we feed 
our troops? How do we get the supplies to them?
    Mr. Gordon. Again, good questions.
    I don't have any independent confirmable information about 
what went on with the back and forth over the Manas Air Base. 
We would have liked to continue to use it for the reasons that 
you say. The Kyrgyz Government explained that it wanted to 
close it. That did coincide with a Russian foreign assistance 
package, but nobody has ever stated linkage between the two 
things. And we are left to deal with the reality of the 
situation, which is that the Kyrgyz Government denied access to 
the base.
    It is useful but not absolutely indispensable. Our military 
has other means of getting what it needs to Afghanistan. But, 
obviously, we would have preferred to be able to continue to 
use the base.
    Mr. Scott. Why do you think they did that? What was their 
point? What point were they trying to make by putting pressure 
on them to close that base.
    Mr. Gordon. Well, again, I don't want to speculate about 
that because I just don't know. We don't even want to say 
explicitly that this is a Russian decision. The Kyrgyz 
Government told us we couldn't use the base anymore, and we 
have to respect that.
    Mr. Scott. Okay. Now, let me ask you about Europe and the 
almost nearly virtual monopoly that Russia now is beginning to 
have on energy, supplying energy, particularly gas, into 
European countries. And apparently there seems to be a split 
decision here, and I am wondering how the United States deals 
with that, or do you agree that there are some countries in 
Europe who have viewed a more tolerant role of dealing with 
Russia vis-a-vis their energy situation, and then there are 
others who say this bad stuff here, particularly like 
Lithuania, Estonia, some of the more closer ones in?
    And what really intrigues me about this is, here is Russia, 
with probably the largest natural gas reserves of any place 
else on the planet, with a staggering weak economy, that it 
seems to me that if they use their energy surplus and their 
energy significance in a more constructive way, it could boost 
and help get their economy go in another way, but instead, 
correct me if I am wrong, it seems to me that they tend to use 
their energy powers as a political tool. Is that a fair 
assessment? And how do we reason to that, and what is the 
feeling in Europe going forward?
    Mr. Gordon. I think it is a fair assessment, and I think 
our response needs to be focused on enhancing diversification 
of energy supplies across Europe. It is not a healthy situation 
for countries to be dependent on other countries for energy 
because that risks making them politically dependent as well, 
and you alluded to that. And there is a correlation between a 
country's political dependence and views toward Russia and 
their energy dependence. This is, of course, particularly true 
for gas, where you need pipelines, and you can't diversify 
simply by having ships come in from somewhere else.
    So we are very keen to promote energy diversification in 
Europe. I think the Europeans have been sometimes slow in 
coming to the conclusion that this is necessary. The Secretary 
appointed Dick Morningstar to be special coordinator for 
Eurasian energy, because this is such a priority for us. In the 
Clinton administration, he was very successful in promoting 
energy diversification then, and he is very much focused on 
helping do so now so that we are not in the position that you 
just described.
    Mr. Scott. May I just follow up with one quick question, 
Mr. Chairman, and my last question?
    But I do want to get a clear understanding, I asked you 
about Iran and North Korea vis-a-vis Russia and we kind of 
dealt with Iran, but I didn't get your response to North Korea. 
In your assessment, what is your assessment of Russia's feeling 
that North Korea presents a threat to them, because a threat is 
a threat, but it really doesn't really become a threat until it 
threatens you? And so does Russia see North Korea's getting 
nuclear weapons a threat to Russia?
    Mr. Gordon. I think they do. They voted along with us and 
other members of the Security Council on a significant U.N. 
Resolution that imposed further sanctions on North Korea, a ban 
on arm sales and provided for inspections to prevent 
proliferation. Russia went along. I am pleased to say that they 
did. They didn't hesitate to cooperate with us on an issue 
where we have a common interest. And that is a good example of 
the places that we can cooperate in a common interest.
    Mr. Scott. Thank you, Doctor. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Wexler. Thank you.
    If I can conclude the hearing just on one issue, if I may. 
The visa waiver program. I believe last year we welcomed seven 
new European countries into the visa waiver program, which I 
think gained us a good strength of proper good will with those 
countries, and we benefit mutually on both sides of the 
Atlantic. Understanding that it is not just the State 
Department but also Homeland Security and others that play a 
very significant role in this process, I just want to put in a 
special plug for Greece, which has gone through an arduous 
process, and we would serve Greek-American relations quite well 
if we can figure out a way to allow Greece into this program 
quickly.
    And in a broader sense, my understanding is, at the end of 
the month, the waiver provision that is provided in the bill 
expires, which would make it more difficult for countries such 
as Poland and Bulgaria, Romania and Croatia to ultimately take 
advantage of the visa waiver program. And I am wondering if the 
administration has any plans on asking for an extension of that 
waiver so that the expansion of the program might go forth in a 
more successful fashion in the future.
    Mr. Gordon. I am not sure I have the answer to your second 
question. I think that group of countries that you mentioned is 
not yet on the verge of meeting the criteria necessary.
    I would want to say on the first, though, the importance of 
getting Greece in the program, we share your view. Greece has 
gone through an arduous process, and we appreciate that, and it 
has made progress. And I think we are getting close. We now 
have the agreements necessary in place. They still have to be 
ratified in Greece. An American review team has to go out 
there. But I think that we are coming near the end of this 
arduous process, and we would very much welcome that. It would 
be good for Greece and Greek-American business ties and 
cultural ties, and we will celebrate the day when Greece is 
finished this process and can join.
    Mr. Wexler. Well, hopefully, we can celebrate in Athens.
    Mr. Gordon. That would be nice.
    Mr. Wexler. Dr. Gordon, thank you very much for your time. 
Your testimony I think is greatly appreciated by all the 
members, and we very much look forward to months and years of 
working with you. Thank you very much.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Gallegly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berkley QFRs deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Gordon responses to QFRs deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
